 

In The
SUPREME COURT OF THE UNITED STATES
October Term 2021

Brad Jennings,
Application/Petitioner

v.
Daniel F. Nash, James Michael Rackley and George Knowles

 

Application for Extension of Time Within Which to File a Petition for Writ of
Certiorari

To the Honorable Justice Brett M. Kavanaugh
Associate Justice of The Supreme Court and Circuit Justice for the Eighth Circuit

 

Elizabeth A. Ramsey

Law Office of Robert Brooks Ramsey, LLC
10206 Manchester Rd. Suite 8

Kirkwood, MO 63122

lizramseymcintosh@gmail.com
314-651-4757

Attorney for Applicant/Petitioner
 

 

APPLICATION FOR EXTENSION OF TIME

Pursuant to Rule 13.5 of the Rules of this Court, Applicant Brad Jennings
requests a 60-day extension of time within which to file a Petition for Writ of
Certiorari up to and including December 17, 2021.

JUDGMENT FOR WHICH REVIEW IS SOUGHT

The judgment for which review is sought is Brad Jennings v. Daniel Nash No.
20-1894. (Opinion, Ex 1). The Eighth Circuit Court of Appeals denied Applicant's
motion for rehearing on July 19, 2021. (Order, Ex 2).

JURISIDICTION

This Court will have jurisdiction over any timely filed petition for Writ of

Certiorari pursuant to 28 U.S.C. § 1254(1). Under Rules 13.1, 13.3 and 30.1 of the

Rules of this Court, a petition for writ of certiorari is due to be filed on or before
October 18, 2021. In accordance with Rule 13.5 this application is being filed more
than 10 days in advance of the filing date for the petition for a writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME

Applicant respectfully requests an extension of time within which to file a
petition for writ of certiorari seeking review of the decision of the Eighth Circuit
Court of Appeals in this case, up to and including December 17, 2021 and states the
following in support
1. Applicant’s counsel has had a recent childcare issue, wherein the child care

provider and her entire family contracted COVID19. Because Counsel has not been
able to find alternate childcare, despite best efforts, this issue has cost counsel
valuable time in completing the Petition for Writ of Certiorari.
2. This is a complex case, with a trial, summary judgment rulings, three different
defendants, and issues and facts dating back to 2006. The time lost due to
childcare/COVID would have been and is essential to thoroughly address all issues.
3. Further, on October 3, 2021, Counsel for Applicant was contacted by a juror from
the February 2020 trial at issue in this case, Jennings v. Nash. This juror gave
counsel a good faith belief that juror misconduct has occurred. A 60-day extension of
time would allow counsel for Applicant adequate time to investigate these issues
and bring them to the district court and this Court’s attention.
4. As Applicant will be filing a motion in the district court case based on the above
allegations of juror misconduct, Applicant believes it is in the best interest of all
parties and this Court to allow for a 60-day extension of time. In the interest of
efficiency, this would allow for the possibility of joining any issue from the
disposition of the new district court motion to the Petition for Writ of Certiorari.
CONCLUSION
For the foregoing reasons, Applicant respectfully requests that this Court

grant this Application for Extension of Time to file a petition for writ of certiorari.

  
 

Elizabeth A. Ramsey

Law Office of Robert Brooks Ramsey LLC
10206 Manchester Rd. Suite 8

Kirkwood, MO 63122

lizramseymcintosh@gmail.com
